OIG Investigative Reports Press Release, St Thomas, VI,  01/17/2013 -  Virgin Islands Senator Pleads Guilty to Operating and Participating in a Crimina Enterprise that Engaged in Bribery, Mail Fraud, and Wire Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
RONALD W. SHARPE
United States Attorney
District of the Virgin Islands
Ron de Lugo Federal Building and U.S. Courthouse
5500 Veterans Drive, Suite 260
Charlotte Amalie
St. Thomas, VI 00802-6424
PRESS RELEASE
FOR IMMEDIATE RELEASE
Thursday, January 17, 2013
Virgin Islands Senator Pleads Guilty to Operating and Participating in a Criminal Enterprise that Engaged in Bribery, Mail Fraud, and Wire Fraud
St. Thomas, USVI - Former Virgin Islands Senator Alvin Williams, Jr., pleaded guilty today in
federal district court to operating and participating in a criminal enterprise whose members and associates
engaged in illegal activities, including bribery, mail fraud and wire fraud, announced United States
Attorney Ronald W. Sharpe, Federal Bureau of Investigation (FBI) Special Agent in charge Joseph
Campbell, United States Marshal Cheryl Jacobs, Virgin Islands Office of the Inspector General Steven
van Beverhoudt, Internal Revenue Service Criminal Investigation Division (IRS-CI) Special
Agent-in-Charge Jose A. Gonzalez, U.S. Department of Education Office of Inspector General Special
Agent-in-Charge Yessyka Santana, Drug Enforcement Administration (DEA) Acting Special
Agent-in-Charge Pedro J. Janer, and Virgin Islands Police Department (VIPD) Commissioner Henry
White.
Williams, 34, and two other defendants were charged by grand jury indictment on November 8,
2012. The plea agreement followed an extensive investigation conducted by the Federal Public
Corruption Task Force, which comprises the FBI, United States Marshals Service, IRS-CI, U.S.
Department of Education Inspector General, DEA, Virgin Islands Office of the Inspector General, and the
VIPD.
In entering his plea of guilty to Count One of the indictment, racketeering before U.S. District
Court Judge Curtis V. Gomez, Williams admitted bribing a Virgin Islands public official and soliciting
and receiving bribes from numerous St. Thomas construction project developers; fraudulently soliciting
and increasing staff member salaries and using the increase of funds for his personal use; and using Virgin
Islands Legislative staff members to do his University of Phoenix online coursework for him during
legislative work hours.
Williams faces a maximum penalty of 20 years imprisonment and $250,000 in fines, in addition to
forfeiture penalties and restitution. No sentencing date has been set.
United States Attorney Ronald W. Sharpe commended the work of the Public Corruption Task
Force and Assistant U.S. Attorneys Kim R. Lindquist and Kelly B. Lake, who are prosecuting this case.
###
Top
Printable view
Last Modified: 01/22/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov